                 UNITED STATES GOVERNMENT
                 National Labor Relations Board
                 Office of Inspector General

Memorandum


March 23, 2011

To:      Bryan Burnett
         Chief Information Officer

From:    David Berry
         Inspector General

Subject: Inspection Report No. OIG-INS-63-11-02: Hard Drive Failures

       We initiated this inspection in February 2011 to calculate the hard drive failure rates for
the Dell laptop computers purchased since the end of Fiscal Year (FY) 2009.


                                          OVERVIEW

        We found that 52 of the 495 Dell laptop computers purchased and installed since July
2009 experienced a hard drive failure. For three of these laptop computers, the hard drive failed
twice. Of the 52 laptop computers, 49 had hard drive failures within 1 year of installation, a
failure rate of 9.90 percent. That rate is significantly above independent research studies of hard
drive failures, which place the annual hard drive failure rate at 2 to 4 percent.


                                        BACKGROUND

       Between July 20, 2009 and September 10, 2010, the Agency purchased 510 Dell Latitude
E6500 and Latitude E6510 laptop computers. The purchase orders are summarized in the table
below:

 Purchase
   Order                                  Vendor
  Number           Date       Model        Name      Computers   Price    Total Cost
59A-090000      7/20/2009 Latitude E6500 Dell          150     $1,391.86 $208,779.00
59-0900028      9/25/2009 Latitude E6500 Dell          235     $1,391.86 $327,087.10
                                         Intelligent
59F-100006      3/29/2010 Latitude E6500                50     $1,496.00 $74,800.00
                                         Decisions
                                         Intelligent
59F-100032      9/10/2010 Latitude E6510                75     $1,570.00 $117,750.00
                                         Decisions
Total                                                   510              $728,416.10
        Prior to purchasing the 510 laptop computers identified in the above table, the Agency
made single unit purchases of Dell Latitude E6500 laptop computers on January 5, 2009, for use
as an advance computer for evaluation; and on June 26, 2009, for imaging needs before the
receipt of the bulk orders. Of the 512 laptop computers in the universe, 495 have been installed
prior to our inspection.

        During the first quarter of FY 2011, the Office of the Chief Information Officer (OCIO)
noticed an increase in the number of hard drive failures in these laptop computers. The OCIO
communicated this to Dell on December 1, 2010, and continued to communicate with Dell as
hard drives continued to fail. Staff in the OCIO stated that the hard drives are under warranty
and are replaced when they fail, but that Dell procedures require the users to run a diagnostic test
and inform Dell of the error code. If the diagnostic test does not reveal an error code, then Dell
will not replace the drive. The Agency requested a supply of spare hard drives, which Dell
provided.


                                           FINDINGS

Failures

        We found that 52 of the 495 Dell laptop computers purchased and installed since July
2009 experienced a hard drive failure. For three of these laptop computers, the hard drive failed
twice. Of the 52 laptop computers, 49 had hard drive failures within 1 year of installation, for a
failure rate of 9.90 percent. The table below shows the statistics by the model:

                                  Failed Hard                 Failed Hard Drives
     Model          Computers       Drives        Percent       Within 1 Year         Percent
Latitude E6500         436             49           11.24             46                10.55
Latitude E6510         59              3             5.08             3                   5.08
Total                  495             52           10.51             49                  9.90

       The failure rate among the laptop computers differed by purchase order. For the four
bulk purchases, only one did not have any hard drive failures. This is shown in the table below:

 Purchase                                     Failed                  Failed Hard
   Order           Vendor                     Hard                   Drives Within
  Number            Name       Computers      Drives      Percent       1 Year          Percent
468073517        Dell              1            0             0.00          0               0.00
493885454        Dell              1            0             0.00          0               0.00
59A-090000       Dell             150          15           10.00          12               8.00
59-0900028       Dell             235          34           14.47          34              14.47
                 Intelligent
59F-100006                         49            0            0.00           0               0.00
                 Decisions
                 Intelligent
59F-100032                         59            3            5.08           3               5.08
                 Decisions
Total                             495            52          10.51          49               9.90


                                             2
       In its correspondence with the Agency, Dell stated that the overall rate of failure for the
hard drives was within the expected limits. This claim is not consistent with independent
research studies we reviewed for this inspection. Studies of hard drive failure rates performed by
Carnegie Mellon University and the French hardware review and optimization Web site
Hardware.fr showed the average annual hard drive failure rate to range from 2 to 4 percent.
Another study analyzing the failure rate for 30,000 laptop computers, conducted by warranty
firm SquareTrade, found that 4.7 percent of laptop computers failed during the first year for non-
accident related reasons. This would include failures due to hard drives as well as other reasons.

Age at Failure

      The table below shows that the majority of the hard drive failures on the Dell Latitude
E6500 and E6510 laptop computers occurred in the second half of the first year after installation.

                                       Computers with a Hard Drive Failure            Percent
Prior to Installation                                                    2                  3.85
Less than 3 Months                                                      10                 19.23
     7 Days or Less                                   2
     Less than 1 Month                                3
     1 – 2 Months                                     5
     2 – 3 Months                                     0
3 – 6 Months                                                             7                  13.46
6 – 9 Months                                                            17                  32.69
9 – 12 Months                                                           13                  25.00
More than 1 Year                                                         3                   5.77
Total                                                                   52                 100.00

Costs

       Staff in the OCIO identified certain costs related to the hard drive failures. The Agency
spent $4,340 to recover files from three failed hard drives. Other costs would include the time
spent by the Help Desk to repair or replace the failed hard drive and the lost time to the
employees. Staff in the OCIO noted that if the hard drive failure occurred in a field office, the
employee’s time without the primary computer could be over a week, which includes the time to
send the laptop computer back and forth to Headquarters.


                                             SCOPE

       We interviewed staff in the OCIO and the Acquisitions Management Branch to learn
about the issues with the laptop computer hard drive failures. We obtained and reviewed the
purchase orders and invoices relating to the laptop computer purchases. We reviewed
correspondence between the vendor and the Agency regarding the hard drive failures.

        We extracted data from the OCIO asset tracking database to determine the universe of
laptop computers purchased during the scope of the inspection. We also obtained access to the


                                            3
OCIO Help Desk call ticket database to determine the universe of hard drive failures for those
computers through March 3, 2011. We then calculated the failure rate and other statistics related
to the hard drive failures.

       This review was done in accordance with Quality Standards for Inspections issued by the
President’s Council on Integrity and Efficiency.


                                       SUGGESTIONS

   1. To prevent the loss of data and limit the time an employee may be without a replacement
      laptop computer, we suggest that the OCIO notify personnel that are assigned a Dell
      Latitude E6500 laptop computer and request that they save files only on the network
      storage drives;

   2. Because the hard drive failure rate of the Dell Latitude E6500 laptop computers
      purchased from Dell is significantly higher than the rate of the same Dell Latitude E6500
      laptop computers purchased from Intelligent Decisions, we suggest that the OCIO
      coordinate with the NLRB Contracting Officer to notify the Contracting Officer for the
      General Services Administration schedule contract with Dell and determine an
      appropriate course of action.




                                            4
